<html>
<title> - THE ROLE OF THE STATE APPROVING AGENCIES IN ENSURING QUALITY EDUCATION PROGRAMS FOR VETERANS</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]




THE ROLE OF THE STATE APPROVING AGENCIES IN ENSURING QUALITY EDUCATION 
                         PROGRAMS FOR VETERANS

=======================================================================

                                HEARING

                               before the

                  SUBCOMMITTEE ON ECONOMIC OPPORTUNITY

                                 of the

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                      WEDNESDAY, NOVEMBER 19, 2014

                               __________

                           Serial No. 113-91

                               __________

       Printed for the use of the Committee on Veterans' Affairs


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

         Available via the World Wide Web: http://www.fdsys.gov
         
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

96-134                         WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001         
         
         
         
         
         
         
         
         
         
         
         
                     COMMITTEE ON VETERANS' AFFAIRS

                     JEFF MILLER, Florida, Chairman

DOUG LAMBORN, Colorado               MICHAEL H. MICHAUD, Maine, Ranking 
GUS M. BILIRAKIS, Florida, Vice-         Minority Member
    Chairman                         CORRINE BROWN, Florida
DAVID P. ROE, Tennessee              MARK TAKANO, California
BILL FLORES, Texas                   JULIA BROWNLEY, California
JEFF DENHAM, California              DINA TITUS, Nevada
JON RUNYAN, New Jersey               ANN KIRKPATRICK, Arizona
DAN BENISHEK, Michigan               RAUL RUIZ, California
TIM HUELSKAMP, Kansas                GLORIA NEGRETE McLEOD, California
MIKE COFFMAN, Colorado               ANN M. KUSTER, New Hampshire
BRAD R. WENSTRUP, Ohio               BETO O'ROURKE, Texas
PAUL COOK, California                TIMOTHY J. WALZ, Minnesota
JACKIE WALORSKI, Indiana
DAVID JOLLY, Florida
                       Jon Towers, Staff Director
                 Nancy Dolan, Democratic Staff Director

                  SUBCOMMITTEE ON ECONOMIC OPPORTUNITY

                      BILL FLORES, Texas, Chairman

JON RUNYAN, New Jersey               MARK TAKANO, California, Ranking 
MIKE COFFMAN, Colorado                   Member
PAUL COOK, California                JULIA BROWNLEY, California
BRAD WENSTRUP, Ohio                  DINA TITUS, Nevada
                                     ANN KIRKPATRICK, Arizona

Pursuant to clause 2(e)(4) of rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.












                            C O N T E N T S

                              ----------                              
                                                                   Page

                      Wednesday, November 19, 2014

The Role of the State Approving Agencies in Ensuring Quality 
  Education Programs for Veterans................................     1

                           OPENING STATEMENTS

Bill Flores, Chairman............................................     1
Ann Kirkpatrick..................................................     2

                               WITNESSES

Mr. Ryan M. Gallucci, Deputy Director, National Veterans Service, 
  Veterans of Foregin Wars of the United States..................     3
    Prepared Statement...........................................    26

Mr. William Hubbard, Vice President of Government Affairs, 
  Student Veterans of America....................................     5
    Prepared Statement...........................................    29

Mr. Steve Gonzalez, Assistant Director, National Veteran 
  Employment and Education Division, The American Legion.........     7
    Prepared Statement...........................................    34

Mr. Keith Glindemann, Vice President and Legislative Chair, 
  National Association of Veterans; Program Administrators.......     8
    Prepared Statement...........................................    36

Mr. Curtis L. Coy, Deputy Under Secretary for Economic 
  Opportunity, VBA, U.S. Department of Veterans' Affairs.........    17
    Prepared Statement...........................................    42

    Accompanied by:
        MG Robert M. Worley II USAF (Ret.), Director, Education 
            Service, VBA, U.S. Department of Veterans' Affairs
Dr. Joseph W. Wescott, President, National Association of State 
  Approving Agencies.............................................    19
    Prepared Statement...........................................    49

                             FOR THE RECORD

National Association of School Advocates for Veterans; Education 
  and Success....................................................    52

 
THE ROLE OF THE STATE APPROVING AGENCIES IN ENSURING QUALITY EDUCATION 
                         PROGRAMS FOR VETERANS

                              ----------                              


                      Wednesday, November 19, 2014

             U.S. House of Representatives,
              Subcommittee on Economic Opportunity,
                            Committee on Veterans' Affairs,
                                                   Washington, D.C.
    The subcommittee met, pursuant to notice, at 10:03 a.m., in 
Room 334, Cannon House Office Building, Hon. Bill Flores 
[chairman of the subcommittee] presiding.
    Present:  Representatives Flores, Coffman, Wenstrup, 
Takano, and Kirkpatrick.

           OPENING STATEMENT OF CHAIRMAN BILL FLORES

    Mr. Flores. Good morning. The subcommittee will come to 
order. I want to begin by welcoming everyone here this morning, 
and I look forward to hearing from both panels here today.
    Today, the subcommittee will conduct an oversight hearing 
entitled ``The Role of the State Approving Agencies in Ensuring 
Quality Education Programs For Veterans.'' The state approving 
agencies, or SAAs, are VA's vital frontline partners in 
ensuring that veterans receive the quality education and 
training that they deserve. The SAAs have a long history of 
serving veterans dating back to when they were first created by 
Congress as part of the original GI Bill in the Veterans 
Readjustment Act of 1944.
    Although the education system has evolved over the last 70-
plus years, the need and function of the SAAs has not 
diminished. It is important that with the billions of dollars 
spent on GI Bill benefits annually, that there is proper 
oversight over education and training programs so that veterans 
are enrolled in quality programs that fit their needs.
    Today, the need for correct and thorough oversight is more 
necessary than ever with the plethora of different programs 
available to veterans. There are now more schools, many of 
which have multiple campuses spread across the country. There 
are more training programs and options such as distance 
learning to access an extensive list of different programs. 
Furthermore, online education is becoming a more attractive 
option for veterans and many fully accredited institutions have 
a majority of their students participating through online 
courses.
    With all of the different avenues of education now 
available, I believe that today's conversation is very 
important if we want to remain confident in the fact that we 
are doing everything we can to get veterans into programs that 
will be meaningful and useful to them for their future success. 
I want to take a minute to commend the current leadership of 
both the VA and the National Association of State Approving 
Agencies for their efforts in the past few years to work more 
collaboratively on their shared mission.
    This partnership, along with the input and assistance from 
other stakeholders, such as the veterans service organizations, 
the National Association of Veterans' Program Administrators, 
and many others is what assures us all that veterans are 
getting the quality instruction they deserve from institutions 
that have the veterans' best interest in mind.
    With the increased level of benefits under the Post-9/11 GI 
Bill over the years and the passage of the in-state provision 
and expanded Fry Scholarship benefits under the Veterans 
Access, Choice and Accountability Act, as well as the growing 
popularity of nondegree and OJT apprenticeship programs, it is 
important that these partnerships not only continue to grow, 
but that thorough oversight of education and training programs 
continue to be a focus. It is also important that, as the 
education sector continues to evolve, oversight over these 
programs evolves along with it.
    I am looking forward to discussing the legislative changes 
that the National Association of State Approving Agencies has 
proposed as these proposals attempt to restructure the role and 
mission of the SAAs for decades to come. I hope that we can 
have a fruitful discussion on the proposal in the preparation 
for the subcommittee's legislative agenda in the 114th 
Congress.
    I also look forward to hearing from all of our witnesses 
today on their view of the current state of the higher 
education system as it relates to veterans' education benefits, 
as well as how they view the current structure, duties, and 
mission of the state approving agencies, and how we can work 
together to improve the effectiveness and ensure quality 
education for all student veterans.
    With that, I recognize Ms. Kirkpatrick, and I would ask 
unanimous consent that the submitted testimony from the 
National Association of School Advocates for Veterans Education 
and Success be entered into the record. Hearing no objection, 
so ordered.

           OPENING STATEMENT OF HON. ANN KIRKPATRICK

    Ms. Kirkpatrick. Thank you, Mr. Chairman.
    Today, we are here to discuss how state approving agencies 
help maintain the quality of education for our veterans using 
GI Bill education benefits. Now, we all know how important GI 
Bill benefits are to our Nation's veterans. They are often 
critical to ensuring veterans' success as they transition to 
civilian life.
    The education landscape has seen some major changes over 
the years with the swift growth of for-profit colleges, online 
programs, and other nontraditional forms of postsecondary 
education and training. With these changes, we must ensure that 
bad actors, particularly those interested solely in profit, are 
not taking advantage of our veterans in order to get their GI 
Bill benefits.
    Unfortunately, due to a loophole in current law, those bad 
actors are being encouraged to aggressively recruit veterans. 
The 90-10 rule, which requires for-profit colleges and 
universities to receive at least 10 percent of their revenues 
from sources other than Federal student aid, does not include 
GI Bill benefits as Federal student aid. That means the more 
veterans with GI Bill benefits that enroll, the more non-
Federal student aid revenue they have and, in turn, the more 
Federal student aid they are allowed to take in. This loophole 
in the 90-10 rule is just one example of how ill-intentioned 
education corporations are taking advantage of veterans and 
other students.
    I am looking forward to hearing from our witnesses about 
the role that state approving agencies have or would like to 
have in ensuring that institutions of higher education are 
meeting the needs of our veterans.
    And, Mr. Chairman, I move that my colleague Mark Takano's 
statement be submitted for the record.
    Mr. Flores. Hearing no objection, so ordered.
    Mr. Flores. I thank Ms. Kirkpatrick for her comments. And I 
want to recognize our first panel. It is already seated. Today 
we have Mr. Ryan M. Gallucci, who is the deputy director of 
national veterans service for the Veterans of Foreign Wars; Mr. 
William Hubbard, vice president of government affairs for 
Student Veterans of America; and Mr. Steve Gonzalez, assistant 
director of the National Veteran Employment and Education 
Division for the American Legion.
    I want to thank you for your past service and for your 
continuing service on behalf of our Nation's veterans.
    And, then last but not least, we have Mr. Keith Glindemann, 
vice president and legislative chair for the National 
Association of Veterans' Program Administrators.
    By the way, congratulations on your new position. We look 
forward to working with you.
    Thank all of you for being here this morning. Your complete 
written statements will become a part of the hearing record and 
each of you will be recognized for 5 minutes for your oral 
statement.
    Let's begin with Mr. Gallucci. You are now recognized for 5 
minutes.

                 STATEMENT OF RYAN M. GALLUCCI

    Mr. Gallucci. Thank you, Mr. Chairman.
    Chairman Flores, Ranking Member Takano, and members of the 
subcommittee, on behalf of the VFW, thank you for the 
opportunity to discuss the role that state approving agencies 
play in ensuring success for today's student veterans.
    We have made significant progress over the years to improve 
veteran access to education, not just by commissioning quality 
benefit programs, but also by improving access to pre-
enrollment counseling and consumer resources, affording 
recourse to veterans who become victims of fraud, waste, and 
abuse, and most recently ensuring that no public school can 
hold a veteran's military service against them when determining 
eligibility for in-state tuition. The subcommittee and my 
fellow panelists should be proud of these accomplishments, but 
we are not done yet.
    Today's hearing and any resulting legislative changes 
should serve as a starting point for the broader discussion on 
the future role of the SAAs. Some in higher education insist 
that SAAs only duplicate the effort of accreditors and the 
Department of Education. The VFW refutes this notion because 
the scope of the SAA's responsibilities goes well beyond that 
of traditional higher ed.
    The VFW believes that we must periodically revisit 
oversight mechanisms and at times change roles and 
responsibilities to suit the needs of an ever-changing veterans 
community. And we encourage this committee to host future 
hearings to candidly discuss new and innovative ways to 
leverage a strong network of SAAs to foster quality outcomes 
for student veterans.
    The VFW proudly serves as constructive partner with the 
National Association of State Approving Agencies, as well as 
VA, in ensuring student veterans have access to quality 
training programs. With this in mind, much of our testimony 
will focus on NASAA's recommendations on ways to improve the 
effectiveness of SAAs.
    For the past few years, NASAA has expressed frustration at 
the inability of SAAs to inspect and approve noncollege degree 
programs at nonprofit schools which were considered ``deemed 
approved'' through Public Law 111-377. After the law went into 
effect, the SAAs found that some schools started to develop NCD 
programs of questionable value. When SAAs sought to inspect 
these programs, they were denied access until VA intervened. 
However, SAAs still lack the statutory authority to properly 
approve NCD programs at nonprofit schools, meaning some 
programs continue to operate as deemed approved until SAAs 
learn about and inspect them. This is why the VFW supports 
extending statutory authority so SAAs can inspect NCDs to 
evaluate quality.
    NASAA has also reported that public institutions of higher 
learning have started the commissioned flight training programs 
as free electives, targeting veterans for enrollment. According 
to the SAAs, schools are adding such programs because of the 
uncapped reimbursement offered by VA through the Post-9/11 GI 
Bill.
    The fact that these programs have sprouted up in the few 
years since the new benefit ramped up is a clear indication 
that SAAs must have greater authority to inspect and approve 
these programs. Moreover, the VFW agrees with NASAA's 
recommendation to establish a reimbursement cap for flight 
programs commensurate with the private institution cap already 
established for the Post-9/11 GI Bill.
    These new criteria are not an indictment of the quality of 
these new flight programs, but instead are a quality control 
measure to ensure that benefits are equitably administered for 
veterans who choose to enroll.
    Next, under current law, VA must conduct annual compliance 
surveys on all facilities with at least 300 student veterans 
enrolled. The VFW agrees with NASAA's assertion that this is an 
impossible mission and one that neglects institutions that may 
face significant compliance issues. The current statutory 
requirement can mean that some schools will go years without a 
compliance survey as VA and the SAAs struggle to survey schools 
with large veteran populations. Such a requirement can hinder 
the response to at-risk programs that may enroll far fewer 
veterans while wasting significant time on inspecting perennial 
top performers.
    The VFW agrees with NASAA that statutory requirements 
should change to ensure the VA can conduct compliance surveys 
at all institutions at least once every 3 years. VA and the 
NASAA should also be given flexibility in determining 
priorities in conducting annual compliance surveys. In the 
past, this kind of collaboration may have been difficult, but 
thanks to the new GI Bill complaint system, the VA is confident 
the VA and the SAAs have access to information through which 
they can identify trends and conduct risk-based reviews.
    Finally, after shopping around and speaking to school 
officials, the VFW could not identify a single preparatory 
course through which a veteran could use his or her GI Bill 
benefits. The ability to use benefits to prepare for complex 
entrance exams like the LSAT, GMAT, or GRE is a major selling 
point for veterans and a benefit readily discussed on VA's GI 
Bill FAQ. The VFW believes that the law is unclear about how 
these programs are to be treated for GI Bill approval, and we 
seek clarification on how VA should approve such courses so 
that veterans can take advantage of the opportunity.
    The VFW firmly believes that the SAAs remain a valuable 
partner in ensuring quality for veterans in higher education. 
We agree with many of NASAA's recommendations. However, we also 
reiterate our call for periodic discussions on how to better 
leverage the SAAs to ensure veterans' success in higher 
education.
    Chairman Flores, Ranking Member Takano, members of the 
subcommittee, this concludes my testimony, and I am happy to 
answer any questions you may have.

    [The prepared statement of Mr. Gallucci appears in the 
Appendix]

    Mr. Flores. Thank you, Mr. Gallucci.
    Mr. Hubbard, you are recognized for 5 minutes.

                  STATEMENT OF WILLIAM HUBBARD

    Mr. Hubbard. Thank you, Mr. Chairman.
    Chairman Flores, Ranking Member Takano, and members of the 
subcommittee, thank you for inviting Student Veterans of 
America to testify today. With this opportunity to discuss the 
state approving agencies and the National Association of State 
Approving Agencies, we will discuss their mission, 
effectiveness, and recent legislative proposal.
    With only 230 staff across 49 States, the SAA are 
responsible for over 7,000 facilities and more than 100,000 
programs--this, in addition to over 1 million annual users of 
GI Bill benefits.
    Congress effectively established the SAA in 1945 when they 
passed Public Law 79-268, authorizing State governors to 
appoint their own approval agencies. As a mechanism to prevent 
so-called fly-by-night schools from taking advantage of 
returning veterans, the SAA became the frontline defense to 
ensure that those veterans receive a quality education.
    Recent changes to the role of the SAA has affected the 
allocation of finite resources, shifting them from areas where 
those resources are needed most. Then, in 2011, Public Law 111-
377 impacted how the SAA are expected to operate. 
Responsibility for performing approvals was split to include 
the Secretary of VA, while the SAA were to increase their role 
in compliance measures.
    This shift in resources away from the significant duty to 
perform approvals has diverted specialized resources away from 
mission-critical functions. The SAA bring an implicit 
capability which should be given greater emphasis: the capacity 
for judicious discretion.
    For student veterans, the SAA across the country have the 
ability to call for a review of a school, even if no specific 
standards are triggered. The goal of the SAA, in our view, 
should be to have their success go unseen by the student 
veteran. If the SAA perform their job well, the true 
beneficiaries should remain unaware. Those that benefit from 
the due diligence of these professionals are the student 
veterans on campuses nationwide.
    Student veterans who successfully transition serve as a 
demonstration of the important work performed by the SAA, that 
these student veterans can count on receiving a quality 
education for the GI Bill benefits they earned. Indeed, they do 
not have to question whether or not their GI Bill benefits will 
be well spent as the SAA provide necessary oversight to ensure 
their education will be one of quality.
    To further advance the effectiveness of the SAA, several 
things should be addressed regarding the authorities and 
resources. Despite the general effectiveness of the SAA, we 
believe there are some areas that require attention. SVA agrees 
with NASAA that the assumed approval of schools is risky for 
student veterans. Implicit approval is not always a safe 
assumption. Additionally, VA being included in the state 
approval process is also an issue worth reviewing. The 
responsibility is no longer the primary duty of the SAA. This 
authority should be returned to the SAA, given their subject 
matter expertise in the field.
    Lastly, we have serious concerns about the potential abuse 
of GI Bill benefits. While no specific cases have been yet 
addressed, the ability of schools to contract out certain 
programs for exorbitant fees is a serious issue. For some 
flight programs or electives, the results of the government 
covering these costs of these programs is well beyond the 
market norm. With the intent of creating a clear and reasonable 
solution, SVA accepts the NASAA proposal to reasonably cap such 
programs.
    Ultimately, we believe the approval process to be the 
preventative medicine for issues which would otherwise stem 
from low-quality programs underserving the interest of student 
veterans. SVA accepts the legislative proposal presented by 
NASAA, and it encourages the body to empower the SAA to pursue 
their mission with the original intent of Congress.
    We thank the chairman, ranking member, and the subcommittee 
members for your time, attention, and devotion to the cause of 
veterans in higher education. As always, we welcome your 
feedback and questions. And we look forward to continuing to 
work with this subcommittee, the House Committee on Veterans' 
Affairs, and the entire Congress to ensure the success of all 
generations of veterans through education. Thank you.

    [The prepared statement of Mr. Hubbard appears in the 
Appendix]

    Mr. Flores. Mr. Hubbard, thank you for your testimony.
    Mr. Gonzalez, you are recognized for 5 minutes.

                  STATEMENT OF STEVE GONZALEZ

    Mr. Gonzalez. Thank you, sir.
    Good morning, Chairman Flores, Ranking Member Takano, and 
distinguished members of the subcommittee. On behalf of the 
national commander, Mike Helm, and the 2.4 million members of 
the American Legion, we thank you and your colleagues for the 
work you do in support of our servicemembers, veterans, and 
their families. We thank you especially for holding this 
hearing.
    With the constantly shifting economic and social landscapes 
faced by veterans, it is important to continually evaluate, 
reevaluate, and, if needed, revise the roles of the state 
approving agencies in order to protect veterans and taxpayers. 
The American Legion is proud to work with the National 
Association of State Approving Agencies in order to provide 
veterans with the best education and training opportunities 
possible.
    In December 2010, Congress passed Post-9/11 Veterans 
Education Assistance Improvement Act of 2010, which was signed 
into law in January 2011. That bill contained language that 
impacted the role of the SAAs in terms of program approval 
authority. Due to the expansion of the GI Bill, eligible 
programs, to include many for-profit vocational training 
programs, nonregistered apprenticeships, and on-the-job 
training establishments, the law deemed approved many programs 
that were otherwise accredited or approved by other 
institutions, such as the Department of Education recognized 
accrediting bodies. That was done in order to relieve some of 
the workload of the SAAs and to avoid redundancies between the 
work done by the SAAs and other accrediting bodies.
    While the American Legion applauds the expansion of the GI 
Bill applicability, we find it problematic that SAAs have been 
removed from a large portion of the approval process. SAAs 
focus specifically on the GI Bill and serve to protect it, and, 
by extension, the veterans using it. Furthermore, as federally 
authorized arms of their respective State governments, SAAs are 
in a unique position to evaluate programs that are offered in 
their State, given the proximity. This arrangement also 
maintains the federalism required by the Constitution. 
Therefore, the American Legion supports the SAAs and believes 
that they should have a role in the reviewing, evaluating, and 
approving all educational and training programs for GI Bill 
use.
    While some may argue that the work that the SAAs do is 
redundant to the work of accrediting bodies, the American 
Legion believes that the SAA's approval is, in fact, unique. 
This is because the charge of the SAAs is to specifically focus 
on protecting GI Bill funds, while traditional accreditation 
provided by the Department of Ed-recognized accrediting bodies 
does a significant portion of work toward ensuring quality 
programs. SAA approval should work in tandem with that 
accreditation, rather than the stark division that is 
represented in the current statute. However, under current law, 
SAAs lack the statutory authority to inspect many questionable 
programs that have sprung up since the passage of the Post-9/11 
GI Bill at not-for-profit institutions.
    The American Legion supports the portion of the legislation 
proposed by the NASAA that would statutorily make SAAs the 
primary approving body for all programs approved for GI Bill 
use. Programs may still be deemed approved, but at the 
discretion of the SAAs, not the Secretary of VA.
    The American Legion agrees with the NASAA recommendation 
regarding changes to flight training. Not-for-profit 
institutions would take advantage of the GI Bill by charging 
exorbitant tuition and fees for this training is disheartening. 
Fixing this loophole helps to protect the GI Bill by ensuring 
that the costs are kept low while still allowing beneficiaries 
to pursue such training, if required or desired. Furthermore, 
in cases where the institution contracts with a third party to 
provide the training, the American Legion believes that the SAA 
should still have approval authority.
    Additionally, the American Legion supports a proposed shift 
in the statutory requirement for SAA compliance surveys. As 
NASAA has indicated, the current mandate is needlessly 
burdensome, and it is frankly impossible, given the limited 
resources available. In light of this, the American Legion 
believes that their funding should be increased to ensure that 
they are able to adequately perform their crucial role. Even if 
SAA's compliance service requirement is reduced, an increased 
role as primary approving body seems likely to require the 
resources.
    The American Legion supports SAAs and recognizes the 
crucial role they play in ensuring quality programs for 
veterans using the GI Bill benefit. This hearing should serve 
as a starting point for an ongoing conversation regarding the 
role that SAAs currently playing in quality assurance. How 
SAAs' approvals interact with accreditation remains somewhat 
unclear. This legislation would make strides toward clarify and 
codifying the terms of that interaction.
    Chairman Flores, Ranking Member Takano, we thank the 
subcommittee for looking into this issue, and it is crucial to 
veterans, and look forward to your questions.

    [The prepared statement of Mr. Gonzalez appears in the 
Appendix]

    Mr. Flores. Mr. Gonzalez, thank you for your testimony.
    Mr. Glindemann, you are recognized for 5 minutes.

                 STATEMENT OF KEITH GLINDEMANN

    Mr. Glindemann. Thank you.
    Chairman Flores, Ranking Member Takano, and members of the 
Subcommittee on Economic Opportunity, my name is Keith 
Glindemann. I am the vice president of the National Association 
of Veterans' Program Administrators, NAVPA. I appreciate and 
thank you for the opportunity to appear before you today to 
discuss NAVPA's view on the role of state approving agencies in 
ensuring quality education programs for veterans. I am 
accompanied on this trip by Marc Barker, who is our current 
NAVPA president.
    It is my hope to help provide some insight on this topic 
from the viewpoint of the individuals that are charged to 
implement the policies and procedures on veterans' education 
benefits at our colleges and universities across this great 
Nation.
    NAVPA was founded in 1975 and it is a nationally recognized 
nonprofit organization of institutions and individuals who are 
involved in the operation of veterans affairs programs and/or 
the delivery of services to veterans as school-certifying 
officials. We are devoted to promoting professional competency 
and efficiency through our association's membership and with 
others involved in veterans education assistance programs. We 
believe that the development, improvement, and extension of 
opportunities to any veteran or their dependent for their 
personal growth or development to be a noble cause.
    Relationship with the SAAs. NAVPA has worked hand in hand 
with our Nation's state approving agencies for many years. They 
have been instrumental in helping our organization provide our 
members with comprehensive training sessions at national and 
regional conferences, offering technical assistance with 
complex issues regarding the certification of GI Bill benefits, 
as well as providing subject matter expertise on policies and 
procedures.
    We, as an organization, have seen the state approving 
agencies always assist in a timely manner. This is especially 
beneficial as it is often hard to get a quick response from our 
overburdened VA education liaison representatives.
    Compliance surveys. Current statutory requirements require 
that any institution with at least 300 GI Bill recipients have 
a compliance survey conducted annually. This requirement is 
mandated regardless of the results of the prior year's survey. 
This requirement results in overburdened inspectors revisiting 
schools that have proven to be good stewards and in full 
compliance. The negative effect of this requirement results in 
many smaller institutions with less than 300 GI Bill recipients 
to go years between surveys. This creates an inequity among 
schools where benefits are being applied. Within NAVPA, we have 
been told of institutions that have not had a compliance survey 
since the inception of the Chapter 33 Post-9/11 GI Bill.
    By relooking at the 300 mandated inspection rule, a more 
favorable one could be determined that would allow institutions 
to be on more equal footing in regards to compliance surveys. 
This could also allow SAAs to be freed up to provide additional 
technical assistance and training. Potential compliance issues 
could be avoided by having better-trained SCOs on the front end 
of the process. This would reduce issues of noncompliance and 
help to preserve benefits.
    Deemed approved. Section 203 of Public Law 111-377 deemed 
certain programs of education to be approved for VA educational 
benefits. NAVPA's membership supports the current deemed 
approved language in 38 U.S.C. 3672 for accredited standard 
college degree programs offered at public or not-for-profit 
proprietary IHLs that are accredited by an agency or 
association recognized by the Secretary of Education.
    NAVPA respectfully asks the legislature and the Department 
of Veterans Affairs to clarify and define ``deemed approved'' 
relative to what the interpretation of a standard college 
degree program is. In the absence of a clear definition of 
standard college program, our member institutions are being 
inundated with proposals and requests from training programs to 
enter into third-party contracted training agreements so that 
the nonapproved programs can operate under the umbrella of 
``deemed approved'' as standard college degree programs without 
actually going through the approval process, be it the VA or 
the SAA.
    In closing, NAVPA's membership institutions strive to 
always be in compliance with all regulations when assisting our 
students in utilizing their VA educational benefits. As an 
organization, NAVPA looks forward to a continued strong 
relationship with the state approving agencies, the VA, and 
others charged with assisting our veterans in achieving their 
educational goals.
    Chairman Flores, Ranking Member Takano, and members of the 
committee, thank you, and I look forward to your questions.

    [The prepared statement of Mr. Glindemann appears in the 
Appendix]

    Mr. Flores. Thank you, Mr. Glindemann, for your testimony. 
I thank the panel for your testimony. And I now yield myself 5 
minutes for questions.
    For each of you--and we will start with you, Mr. Gallucci--
what is your position on the SAA's proposed legislative changes 
to the GI Bill as it pertains to flight schools?
    Mr. Gallucci. As we laid out in our testimony, we support 
establishing a cap and allowing SAAs broader authority to 
inspect these programs and evaluate them for quality. The 
reason we support establishing that cap is because what the 
SAAs have reported and what VA seems to have confirmed is that 
these schools seem to just be charging whatever they want. It 
is not commensurate with what the economy would reflect the 
cost of that program should be.
    So our concern is they are basically optimized to what the 
Post-9/11 GI Bill will pay out right now. And unless we get 
that under control, they are going to continue to charge 
exorbitant fees for that, which VA will have to reimburse for.
    Mr. Flores. Okay.
    Mr. Hubbard.
    Mr. Hubbard. Thank you for your question. Similarly, we 
support NAVPA's proposal, more from a standpoint of the 
concerns over waste of the GI Bill. As money goes out the door 
way beyond market norms, this is ultimately decreasing the 
return on investment with the GI Bill, which is of serious 
concern to us.
    Mr. Flores. Okay.
    Mr. Gonzalez.
    Mr. Gonzalez. Yes, Chairman. I will echo the same sentiment 
as my two colleagues. We support SAA's recommendation on flight 
school. Just like Will and Ryan have indicated, it is also 
ensuring that we are fiscally responsible in how the GI Bill is 
being applied, what is the return on investment, and ensuring 
that the SAAs can actually review the actual programs that are 
being offered, regardless of where they are being offered.
    Mr. Flores. Okay.
    Mr. Glindemann.
    Mr. Glindemann. Thank you, Chairman Flores, for the 
question. Our position at NAVPA would be that we support the 
State Approving Agencies' recommendation on this. Fee caps are 
necessary to help preserve the whole program as we look at the 
use of the Post-9/11 GI Bill. The other piece would be that we 
need to ensure that people aren't taking flight classes in an 
open elective status and therefore burning through the benefit.
    Mr. Flores. Okay. Thank you.
    Mr. Hubbard, throughout your written statement you referred 
to your belief that the SAAs need to return to their core 
competency. Can you expand on that recommendation?
    Mr. Hubbard. Yes. And thank you for the question.
    The SAAs, their original role--and it is an approval body--
has been somewhat mitigated by additional expectations placed 
on them, in particular their performance of compliance 
measures. We believe compliance measures are more of an audit 
function and could be done in other entities. For them to take 
their subject matter expertise and place it toward activities 
that are not their core competency is ultimately denigrating 
their comparative advantage in the space.
    Mr. Flores. Okay.
    Mr. Glindemann, one of the biggest challenges that arises 
when it comes to veterans' education, as I understand it, is 
the high turnover rate and the need for enhanced training for 
school-certifying officials. Can you comment on these issues--
you touched on it a little bit--and how we can work 
collaboratively to address the retention and turnover and 
training of these individuals?
    Mr. Glindemann. Thank you.
    Yes. The main thing with our school-certifying officials 
are that they often could be at a college where they wear many 
hats. They are not only a school-certifying official. They 
could also be an admissions person, evaluations personnel. The 
other thing is that school-certifying officials who only do 
that duty also may move within the structure of their college, 
therefore having a high turnover.
    Currently, we have the School Certifying Official Manual 
that the VA updates and puts out to us every 6 months, which is 
a great tool. It is approximately 280 pages. The Quick 
Reference Guide for Certifying VA Benefits is 120 pages.
    Mr. Flores. Wow.
    Mr. Glindemann. Sometimes that can be like drinking from 
the fire hose when you are just trying to do that.
    The best types of training are physical training where the 
people can actually be in front of the system. When being 
certified to be able to certify benefits, the VA once system 
offers a training program prior to being able to enter stuff. 
That is a great first step. However, something more thorough 
and that could be offered, whether regionally trained or SAAs 
actually in the schools, would be beneficial.
    Mr. Flores. Okay. So you believe there should be some sort 
of standardized training with a certification for this position 
at schools?
    Mr. Glindemann. Absolutely.
    Mr. Flores. Okay.
    Approaching the end of my 5 minutes, I am going to release 
the rest of my time. And I will recognize the ranking member, 
Mr. Takano, for 5 minutes for his questions.
    Mr. Takano. Thank you, Mr. Chairman. I thank you for 
holding the hearing on this really important topic.
    Mr. Gonzalez, can you elaborate a bit more about how you 
perceive the difference between what SAAs do and what an 
accrediting body does?
    Mr. Gonzalez. Yes, sir. The accrediting body that is 
usually recognized by the Department of Education, they look at 
the whole institution, and that is sometimes done within a 1-
year to 10-year time span, where the SAAs, of course, work in 
tandem with the accreditation body. But what they do is they 
accredit the actual programs that are being offered to the 
actual beneficiary, and that is an ongoing process where, 
again, they are different in their scope and their bandwidth 
and what their actual jobs and role is.
    And to be honest, SAAs, when they were created, were 
totally created--like my colleague Will has stated--out of the 
first GI Bill and then, of course, leading into the second GI 
Bill in the 1950 for the Korean War vets where it actually 
helped create the regional accreditation body to help ensure 
that these public institutions that were being created to 
absorb the returning veterans, that they had quality programs 
and the institutions had the right faculty and the institutions 
had the right type of policies in place. And, again, the 
accreditation body is really a peer-to-peer, once every 10 
years type of evaluation, where the SAAs is an ongoing process.
    And they continue to have an ongoing process because for 
individual institutions to continue to have their programs 
approved, they have to resubmit any time a course is changed. 
So the course catalogues always have to be resubmitted to the 
SAAs to make sure that those programs are meeting the 
standards.
    Mr. Takano. And that happens ongoingly and more frequently?
    Mr. Gonzalez. Yes, sir.
    Mr. Takano. Do you believe the VA, as a fiduciary, should 
still play a role in the approval process or that SAAs should 
be entrusted to make the decision on their own?
    Mr. Gonzalez. We think that the SAA, being that they are 
the primary, they are actually on the ground, they know the 
schools that they are working with, they have the knowledge and 
institutional knowledge, that they should be the primary 
approval authority when looking at programs.
    And if you take it one step further, that is the whole 
purpose of being approved. You have everything, roughly, 137 to 
140 SAAs, individuals throughout the 50 States and, I think, 
U.S. territories, and you have 7,000 programs. That is the 
whole reason why ``deemed approved'' was put into play.
    Now, that shouldn't say that an SAA shouldn't be able to 
go, as an example, go to Harvard and not look at their program. 
Granted, I wouldn't think Harvard would not have a great 
program. But it shouldn't take away that the SAA should not be 
able to still go to Harvard and say, I want to at least inspect 
to make sure that you are still meeting the standards we need 
to protect the GI Bill, and by that to protect the veteran 
themselves.
    Mr. Takano. But should the VA still play a role in the 
process or----
    Mr. Gonzalez. Yes, sir.
    Mr. Takano. Okay.
    Mr. Gonzalez. I mean, we shouldn't take VA out completely 
neither.
    Mr. Takano. Well, VA should be the primary.
    Mr. Gonzalez. Yes, sir.
    Mr. Takano. VA should be the primary.
    Mr. Hubbard, do you think that the SAAs--on a little bit 
probably different track--do you think that the SAAs are 
successfully weeding out programs that lead to essentially 
worthless degrees, like those that promise to prepare student 
veterans for entry in a particular profession but do not 
qualify them for the necessary license or exam?
    Mr. Hubbard. Thank you for the question. In short, yes. 
They are the best option for quality that we have right now. 
There are a lot of different measures in conversation to try 
and approach that level of quality. But right now the SAAs for 
student veterans are the best option we have. Again, they have 
that judicious ability to look at the program and if something 
doesn't quite look right they can ask for a review. I think 
that is a very valuable quality that they bring to the table, 
and it is something that just hasn't been achieved otherwise.
    Mr. Takano. But are they--I mean, you say they are the best 
option--but are they successfully able to weed out these 
programs?
    Mr. Hubbard. I will give you an example. In Virginia there 
were a couple schools that were performing some questionable 
activities. Strong SAA there. They were able to review the 
program, and the end result was convictions and jail time for 
those who were taking advantage of the system and really at the 
end of the day harming student veterans.
    Mr. Takano. Could we do this better? I mean, could the SAAs 
be doing a better job? I mean, I don't dispute that you think 
they are the best option now. But I have got a sense that there 
are a lot of programs that still are out there that are wasting 
our veterans' money----
    Mr. Hubbard. Right.
    Mr. Takano [continuing]. And wasting the Federal 
Government's money. How could we do this better? If you would 
take that.
    Mr. Gallucci. Oh, Mr. Takano, I would like to jump in 
there, if I could, quickly.
    Mr. Takano. Please.
    Mr. Gallucci. I think that is one of the reasons we are 
here today, to talk about the way that they conduct compliance 
surveys. And I think this is one of the reasons why we support 
changing the statutory requirement that they only go to schools 
that have more than 300 veterans every year.
    With the commissioning of the complaint system, we now have 
access to a lot more information. We have seen the SAAs do it. 
It was brought to our attention about the expansion of 
noncollege degree programs, about the flight school issue. They 
are aware that this is happening. But giving them the authority 
to go in and conduct more audits will strengthen their ability 
to do it.
    I agree with Will that they are the best option we have 
right now, and I think the proposals that we are discussing 
today would only strengthen their ability to serve as that 
frontline defense.
    Mr. Takano. Mr. Chairman, I am sorry I went over my time, 
but I thought it was an important question. But I yield back.
    Mr. Flores. Thank you, Mr. Takano.
    Mr. Coffman, you are recognized for 5 minutes for 
questions.
    Mr. Coffman. Thank you, Mr. Chairman.
    First of all, I want to thank you all for your service, 
those who have served in the military, and thank you so much 
for what you do on behalf of veterans in achieving their 
educational goals.
    I think that the fundamental mistake made by the Congress--
and I was an Army veteran, I went to the University of Colorado 
under the Vietnam-era GI Bill, which gave veterans an amount of 
money in order to pay for room and board and tuition based on 
pretty much the average cost of going to a public university in 
the country. And then, we made decisions. We were the ones, 
empowered to make decisions based on cost and quality.
    I think after Congress tried to save money in post-Vietnam 
by going to this VEAP program, that I don't think was very 
effective. That was a matching program. Then we have the Post-
9/11 GI Bill, that I think was pretty much written by 
institutions, educational institutions, for educational 
institutions, whereby it was bifurcated from living expenses to 
tuition and with tuition is uncapped.
    I think you get the spiralling of inflation of tuition 
where there is no shopping around, where the veteran is in the 
marketplace. I think that was a big mistake, and I think we 
ought to look at going back to that Vietnam-era plan where we 
give an amount of money to a veteran and let the veteran shop 
for what program. If they want to go to a private school. They 
pay the difference, as we did. My decision then was to go to 
the University of Colorado where my costs were covered.
    Secondly, I am very concerned in our discussion today about 
proprietary schools. Granted, there are abuses. This 
administration has a gainful employment rule on proprietary 
schools, and I think there are certainly bad ones, as there are 
bad programs in public institutions that don't lead to jobs.
    My father retired as a master sergeant from the United 
States Army. He had no more than a GED. Started out at a 
community college where he wanted to learn heating and air 
conditioning repair, but he was forced to take electives. He 
dropped out of that college, went to a proprietary trade school 
under the GI Bill, learned the specific trade that he wanted, 
heating and air conditioning, and eventually had a successful 
small business that did that.
    I am very concerned that it is more that this whole attack 
on proprietary trade schools is really focused on the working 
class Americans in terms of their ability to advance to the 
middle class. My father could have gone to where I went to 
school and studied anything that didn't lead to a job, taken a 
major that wouldn't lead to a job, and that would have been 
okay. But to go to a proprietary trade school to try and better 
himself, that is not okay. There has got to be a balance.
    The problem I have in asking a question is I am so opposed 
to the existing system we have, because I think it doesn't 
serve veterans, it doesn't serve taxpayers, and we need to 
abandon it and go back to Vietnam-era plan.
    Let me ask you, what you all are evaluating in terms of 
these folks that go out and evaluate programs that are 
available under the GI Bill. Do these same personnel look at 
apprenticeship and on-the-job training for veterans? Do they 
help in that process? And what can we do to make more 
opportunities available to veterans who come back and want 
jobs?
    Mr. Gallucci. Well, thank you, Mr. Coffman. And, again, 
thank you for your service as a fellow veteran. Always good to 
have fellow veterans in Congress.
    But, again, to your question about evaluating quality of 
OJT and apprenticeship programs, this is one of the other 
primary functions of the state approving agencies.
    Mr. Coffman. Okay. Good.
    Mr. Gallucci. This is one of the reasons that we each, I 
believe, outlined in our testimony, that we feel they play a 
critical role. These are underutilized programs and for 
veterans who don't want to pursue traditional higher ed, they 
are certainly a viable career path and it is something that we 
fully support.
    Mr. Coffman. Okay.
    Mr. Chairman, may I have an extension of my time so they 
can answer the question?
    Mr. Flores. Give you another 30 seconds.
    Mr. Coffman. Thank you, Mr. Chairman.
    Anybody else have anything?
    Mr. Hubbard. If I can just add to that. I do like the point 
that you made originally about being able to shop around with 
your benefit. To the credit of the VA, the GI Bill comparison 
tool is getting closer to that. It allows veterans to see the 
benefits that they have and then compare that at different 
schools. So I think that is getting closer to that ability to 
shop around in that sense, and I think that is something that 
is worth exploring in more detail.
    Mr. Coffman. Okay. Thank you, Mr. Chairman. I yield back.
    Mr. Flores. Okay. We will offer my colleagues a second 
round of questions so that we can wrap that one up if that is 
okay with Mr. Coffman.
    Ms. Kirkpatrick, you are recognized for 5 minutes.
    Ms. Kirkpatrick. Let me first say that I really appreciate 
the work you are doing as representatives of the veterans 
service organizations. You are the eyes and ears of this 
committee as we try to craft policy that is going to really 
help our veterans. So I appreciate your coming to the Hill 
today to our committee and having this discussion with us. It 
is very important. So I just want to thank you.
    Mr. Glindemann, I have a question with respect to the 
compliance survey rules. How many institutions actually have 
less than 300 GI Bill recipients? Any idea about that?
    Mr. Glindemann. I couldn't answer that right now. I know 
through our membership over 50 percent of our schools are under 
300. And the biggest worry for us is that I think the VA 
originally maybe or the intent of the rule was to get the big 
recipients of GI Bill dollars. So when they came into a college 
with over 300, if they could identify compliance issues there, 
they could have more cost savings.
    Unfortunately, then we look at the smaller schools. I 
actually help oversee veterans services for over 35 campuses, 
and one of my campuses only has about a dozen veterans at it. 
So in theory it has its own facility code, so it would be under 
a separate inspection. Those are kind of what you would think 
of as the nickels and dimes because it is a lot smaller amounts 
of money from the Post-9/11 GI Bill coming into that school. 
However, they still have the same issues with training and the 
same issues with just trying to make sure the program is 
straight and with high turnover rates of their personnel.
    Ms. Kirkpatrick. What do you think would be a better number 
then, than 300? Should there be no number or should everyone go 
through the compliance review? I mean, what are your thoughts 
about that?
    Mr. Glindemann. I would expand it that for your schools 
that pass that don't have any major compliance issues, a 36-
month rule. I think if you could visit every school within 36 
months, you would really get a true vision of what is out 
there, stop issues as soon as they happen, and have cost 
savings for the program as a whole.
    Ms. Kirkpatrick. Mr. Hubbard, could you describe for me a 
model SAA that you envision or that is actually out there just 
so we can know really what works well for our veterans?
    Mr. Hubbard. Sure. So I think the biggest thing is to be 
able to have a full spectrum of review. If an SAA is not able 
to look at all the programs, it is going to be an incomplete 
picture. So having that off the bat is a really important part.
    In addition, the communication between the SAA and VA is 
critical. With the JAC, the Joint Advisory Committee that is 
set up and set to continue conversations, I think that is also 
a critical aspect in that process. If they are not talking, the 
benefits coming and going, it is not going to be clear how that 
is working. So to have that Joint Advisory Committee, we do 
look forward to seeing the work come from that and think that 
will support that process quite well.
    Ms. Kirkpatrick. Mr. Gallucci, I introduced a bill that 
would say if a veteran has a skill in the military, such as 
EMT, that they can easily get certification without having to 
go through all of the EMT training. And so my question is for 
you, do you think that there should be an easier path for 
approval of GI Bill benefits in noncollege degree programs such 
as EMTs?
    Mr. Gallucci. This is a really good question, and I may 
defer to my colleague Steve to comment on this a little as 
well.
    Ms. Kirkpatrick. Okay. That is fine.
    Mr. Gallucci. Absolutely, as far as an easier path to 
approving these kinds of programs. What I think the concern is, 
though, is that the SAAs still have to play a role in that to 
ensure the validity of these kinds of programs.
    We have seen a lot of positive steps in improving the 
transferability of military-acquired skills to the civilian job 
market over the last few years, and it is still efforts that my 
colleagues at the table and I still push for. But it is 
something that, absolutely, if there is a way that a 
servicemember can translate their skills to a job set and then 
find a job, that is something we absolutely support.
    Ms. Kirkpatrick. I have about 40 seconds. Anybody else want 
to comment on that?
    Mr. Gonzalez. Ma'am, I will make even a lot easier. SAAs, 
again, approve the program itself. Now, if you want to take it 
one step further, the question now becomes--and this is a 
question that might be for this committee, but also for the 
Education and Workforce Committee--because the institution 
bodies themselves are accredited by a totally different 
accreditation body, that if you actually get some type of 
credential irrespective of the credential from an institution 
of higher learning and yet you cannot sit for a license at a 
state board, then that is greater than just an SAA issue. It is 
an actual accreditation and SAAs of that respective state, 
ma'am.
    Ms. Kirkpatrick. Thank you very much. I yield back.
    Mr. Flores. Thank you, Ms. Kirkpatrick.
    We thank the first panel for your testimony. You are now 
excused.
    Mr. Flores. And I would invite the second panel to the 
table. On our second panel, we welcome back both Mr. Curtis L. 
Coy, deputy under secretary for economic opportunity at the 
Department of Veterans Affairs. And he is accompanied by Major 
General Robert Worley, director of the Education Service at the 
Department of Veterans Affairs.
    I thank both of you for your prior service, and it is nice 
to have you back in front of this committee.
    And we also have Dr. Joseph Wescott, president of the 
National Association of State Approving Agencies, who has been 
a large subject of the testimony of today's hearing.
    We thank you for your prior service as well, Dr. Wescott, 
and it is great to have you here.
    Mr. Coy, as soon as you get situated, we will recognize you 
for 5 minutes for your testimony. Sorry to rush you guys.

  STATEMENTS OF MR. CURTIS L. COY, DEPUTY UNDER SECRETARY FOR 
  ECONOMIC OPPORTUNITY, VETERANS BENEFIT ADMINISTRATION; U.S. 
 DEPARTMENT OF VETERANS AFFAIRS, ACCOMPANIED BY MAJOR GENERAL 
ROBERT M. WORLEY II, USAF (RET.), DIRECTOR, EDUCATION SERVICE, 
 VETERANS BENEFIT ADMINISTRATION; U.S. DEPARTMENT OF VETERANS 
                            AFFAIRS

                   STATEMENT OF CURTIS L. COY

    Mr. Coy. Thank you and good morning, Mr. Chairman, Ranking 
Member Takano, and other members of the subcommittee. I 
certainly appreciate the opportunity to appear before you today 
to discuss the Department of Veterans Affairs' education 
benefit program and the role of state approving agencies. 
Accompanying me this morning, as you indicated, is Rob Worley, 
our director of education service at VA.
    I would like to start by acknowledging and thanking NASAA 
for its leadership and all SAAs for their continuing commitment 
to work with their respective educational institutions and VA 
to ensure the accurate and timely delivery of high-quality 
educational benefits to our veterans.
    I would specifically like to thank Dr. Joe Wescott, 
president of NASAA, for his exceptional leadership. The last 
several years have been a collaborative journey for his with 
our SAA partners. I would also like to thank and acknowledge 
the other members and organizations testifying here today. I 
respect and admire their passion and advocacy of veterans.
    As you know, VA administers educational benefits to 
eligible veterans and dependents, while SAAs work to ensure the 
quality of educational and vocational programs. SAAs are 
charged with approving courses, including apprenticeship 
programs, and ensure that education and training programs meet 
approval requirements through a variety of approval activities.
    With the implementation of Public Law 111-377, VA was given 
the authority to use the services of the SAAs to assist VA in 
conducting compliance surveys. That has been an incredibly 
value-added partnership. SAAs also conduct outreach to veterans 
and other eligible persons about available education and 
training benefits. We believe SAAs add significant value to the 
VA's educational benefit programs.
    As I mentioned, in the past 2 or 3 years VA and our SAA 
partners have worked collaboratively. Two quick examples. This 
past September, VA and NASAA conducted a joint summer training 
conference to provide essential training to both NASAA and VA 
compliance and liaison staff. One primary goal of the training 
was to ensure a comprehensive and consistent understanding of 
all aspects of compliance surveys. Another example, VA and 
NASAA recently chartered a Joint Advisory Committee to serve as 
a standing forum for resolution of issues related to the mutual 
responsibilities of SAAs.
    Today, we are here to talk about legislative proposals 
submitted to the committee by NASAA in three broad areas: 
compliance reviews, flight training programs, and program 
approval.
    With respect to changing the current statutory requirements 
for conducting compliance surveys, VA believes it may be 
necessary to review the frequency and types of schools at which 
compliance surveys are conducted. Currently, there are about 
16,000 approved domestic and international institutions of 
higher learning and noncollege degree institutions. Of the 
16,000, 11,260 were active institutions in calendar year 2013. 
During the last 2 fiscal years, VA and SAAs have completed over 
10,000 compliance surveys. This work was split roughly in half 
between VA and SAAs.
    VA believes that it would be valuable to review the 
criteria for compliance survey requirements, and we believe 
there should be enough flexibility to allow for the time and 
resources to conduct scheduled surveys, as well as unscheduled 
surveys and risk-based surveys. We look forward to working with 
NASAA and the committee on this.
    NASAA also has put forward proposed changes to the flight 
school aspect of the GI Bill. Like NASAA, VA is concerned about 
high tuition fee payments for enrollment in degree programs 
involving flight schools. VA wants to ensure that we are good 
stewards of the taxpayer money and we are open to discussing 
possible changes in how benefits are paid.
    There has been a significant increase in flight training 
centers, specifically those that offer helicopter training, 
which have contracted with public IHLs to offer flight-related 
degrees. Sometimes these programs charge higher prices than 
those that would have been charged if the student had chosen to 
attend a vocational flight program, which is currently capped 
at about $11,000. We are, also, concerned about the growing 
number of VA beneficiaries that are taking flight school 
courses as an elective.
    Finally, the NASAA proposal would clarify and codify state 
approval authority and oversight to all non-Federal facilities. 
VA is not opposed to this proposal and to clarify SAA approval 
authorities within the context of the other key functions SAAs 
perform, including compliance, training, outreach, and 
technical assistance. However, the VA believes that the 
Secretary should maintain the approval-related authorities 
currently reflected in the statute.
    Mr. Chairman, this concludes my statement. I would be happy 
to answer any questions you may have.

    [The prepared statement of Mr. Coy appears in the Appendix]

    Mr. Flores. Thank you, Mr. Coy.
    Dr. Wescott, you are recognized for 5 minutes for your 
testimony.

                 STATEMENT OF JOSEPH W. WESCOTT

    Dr. Wescott. Mr. Chairman, Ranking Member Takano, and 
members of the subcommittee, I am pleased to appear before you 
today on behalf of the National Association of State Approving 
Agencies to discuss the role of state approving agencies in 
ensuring quality education. I am accompanied by our legislative 
director, Tim Freeman.
    Soon after the GI Bill became law, Congress, recognizing 
that it was the responsibility of the States within our Federal 
system of government to oversee the education of their 
citizens, required that each State establish a state approving 
agency. Thus evolved a truly cooperative Federal-State effort 
that maintains the rights of the States while monitoring and 
protecting a federally sponsored program administered under the 
terms and conditions of Federal law.
    And I would say that VA has strived, particularly under the 
leadership of Deputy Under Secretary Curt Coy, to both support 
and enhance that historic partnership. I sincerely thank him 
for that commitment. And I thank my other partners here today 
as well as who share both our passion and our purpose.
    Today 55 SAAs in 49 States and Puerto Rico, composed of 
nearly 175 professional and support personnel, are supervising 
over 7,000 active facilities with approximately 100,000 
programs. NASAA believes strongly that the primary 
responsibility and focus of the SAAs is and should continue to 
be to review, evaluate, and approve programs at schools and 
training facilities utilizing State and Federal criteria and to 
provide training and technical assistance to school officials. 
For that reason, it is critically important, as Congress 
intended, that each State have a state approving agency.
    In 2011, with the implementation of Section 203 of Public 
Law 111-377, we began assisting VA with their requirement to 
perform compliance surveys at SAA-approved institutions. Over 
the course of the next 3 years, SAAs conducted over 60 percent 
of the compliance survey visits performed. Last year alone we 
conducted 51 percent of those visits.
    NASAA has submitted legislative proposals to the committee 
which would serve to improve the service and protection 
provided to our veterans while enhancing the administration of 
the GI Bill. Our legislative proposals to the committee are in 
the area of approval authority, payment for flight programs, 
and compliance reviews.
    NASAA seeks to clarify and codify state approval authority 
and oversight over all non-Federal facilities.
    Dr. Wescott. We wish to clarify the Federal code in regard 
to the role of SAAs, by identifying SAAs as the primary entity 
responsible for approval, suspension, and withdrawal. In 
addition, since the passage of the Public Law 111-377, there 
has been no statutory authority for the approval of accredited 
NCD programs at public or private not-for-profit institutions, 
a situation our recommendation would correct.
    NASAA is seeking measures to improve cost control for 
flight programs offered by colleges and universities. Some 
public higher education institutions have instituted higher 
costs for flight fees, and in some cases benefits have been 
paid for aviation degree programs at public IHLs provided by a 
third-party flight contractor with no approval issued by the 
governing SAA. NASAA suggests limiting Chapter 33 payments for 
flight programs and public institutions to the prevailing cap.
    Finally, NASAA seeks appropriate changes to 38 U.S. 3693 to 
improve the manner in which we and our VA partners perform 
compliance surveys. We would like to see changes in the law to 
allow VA, with the assistance of the SAAs, to respond quickly 
to risks identified through the new complaint system. To 
accomplish this, Mr. Chairman, our legislative proposal is to 
amend the law to provide that the Secretary will conduct a 
compliance survey at least once every 2 years at each facility 
offering one or more approved programs with at least 20 
veterans or eligible persons enrolled.
    Mr. Chairman, NASAA remains strongly committed to working 
closely with our VA partners, our VSO stakeholders, and school 
officials to ensure that veterans have access to quality 
educational programs delivered in an appropriate manner by 
reputable providers. This concludes my statement and, I look 
forward, Mr. Chairman, to answering any questions you or other 
members may have.

    [The prepared statement of Mr. Wescott appears in the 
Appendix]

    Mr. Flores. Dr. Wescott, thank you for your testimony. And 
also thank you for the work that you and your colleagues and 
your affiliated organizations do to further veterans' education 
in our country.
    I am going to begin, I am going to recognize myself for 5 
minutes for questioning. The first question is for you, Mr. 
Coy. What is the Department's position on the flight school 
changes that have been proposed by the SAAs?
    Mr. Coy. Thank you, Mr. Chairman, for that question. There 
are two or three comments with respect to flight schools. Right 
now flight schools, as we break it down, are basically in three 
general areas.
    The first is the vocational flight school, and as I 
mentioned, that is currently capped at $11,500 and a little bit 
more. And we believe that is fine as is to some degree.
    The second is flight school programs at institutions of 
higher learning that for the most part have been contracted 
out. And we have seen an alarming increase in the dollars that 
are spent on that.
    And then finally, there are flight course electives that 
veterans are taking, that again is somewhat alarming in that. 
Capping them at the current national maximum of $20,235.02 
probably makes good sense in terms of being able to manage 
those programs and looking at this from a standpoint of being 
good stewards of the taxpayer money.
    Mr. Flores. Okay. Thank you. Another question, Mr. Coy. 
What is the Department's position on the legislative changes 
proposed by the SAAs regarding the number of compliance surveys 
completed over the course of a year?
    Mr. Coy. Another great question, sir. And I would suggest 
that as we stand back and look at compliance surveys as a 
whole, currently, as you know, it is all schools over 300 
students. I have some numbers here that are somewhat 
interesting.
    Right now, as I think I mentioned, there are about 11,260 
schools that were active schools in 2013. Interestingly, of 
those 11,260 schools, 15 percent of them have one veteran 
attending. And then if you look overall, the number of schools 
that have 20 or more attending is 5,100 schools. So you see we 
would essentially capture well over 50 percent of those active 
schools should we drop that down to 20. We have also heard 
testimony today that there are some schools that don't 
necessarily are required to have compliance surveys because 
they drop below that 300 cap.
    So doing it for 20 schools or more probably is an 
appropriate number every 2 years, because what we think would 
be valued is, as we stand back and look at our compliance 
survey process in the past few years, as I mentioned, we have 
done 10,000 over the last 2 years or 15,000 over the last 3 
years.
    And so if we stand back and look at being able to do in 
round numbers 5,000 surveys a year, and being able to schedule 
a certain amount of surveys so the schools over 20 would be in 
round numbers about 2,500 schools or so every 2 years, that 
allows us some flexibility to do unscheduled visits, which we 
want to increase, but as well do risk-based reviews of schools 
based upon whether they are complaints from our complaint 
system or getting them from other quarters. So the over 20 
probably provides enough flexibility.
    Mr. Flores. The next question is for both of you, Dr. 
Wescott and Mr. Coy. In Mr. Gallucci's testimony and in his 
written statement he alerted the subcommittee to the fact that 
many college prep courses--or actually I would say post-
undergrad courses--offered at institutions of higher learning 
are not approved for use under the GI Bill. Can you tell me, A, 
is the assertion correct? And B, if it is, do you see this as a 
problem, and what steps can the VA and the SAAs take to address 
this issue?
    Mr. Wescott. Mr. Chairman, certainly there is regulatory 
ability to approve those courses. There are certain limitations 
about what courses can be approved. For instance, they must be 
offered by an IHL.
    So normally what happens in the approval process, if a 
student takes a course, wants reimbursement, he will go to that 
institution and then that institution would come to the SAA. 
Certainly we can work within our States to promote more 
knowledge about these courses and can work with IHLs to see 
what they are offering so that we can have more of those 
courses approved. But it is somewhat driven by the needs of the 
veterans themselves.
    Mr. Flores. Mr. Coy, anything to add?
    Mr. Coy. I would agree with Dr. Wescott. I would add one or 
two other pieces. There is some flexibility to provide for some 
of those thing like LSAT prep courses, and SAT prep courses and 
that sort of thing for the GI Bill.
    I think one of the challenges that we see more anecdotally 
or not is remedial course for veterans coming onto campus. And 
so when they first get to campus, they may require, for 
example, a no-credit course, but it is English 101 revised or 
revisited, in other words, or Math 101, that would help a 
veteran get reacquainted to the academic environment.
    Generally, those courses are not credit courses. So those 
are the kinds of things that I think Ryan was also alluding to 
in his oral testimony.
    Mr. Flores. Okay. Thank you, Mr. Coy.
    And I apologize to the ranking member for overrunning my 
time, and so I will give you 7 minutes for questions.
    Mr. Takano. Mr. Chairman, that was a very important 
dialogue you were having toward the end and I don't begrudge 
you in the least.
    Dr. Wescott, can you please explain to me some of the 
criteria SAAs use to evaluate programs? What I am getting at 
is, do you see noticeable differences between for-profit and 
nonprofit or public schools? Do you think the criteria are 
stringent enough for the evaluation?
    Dr. Wescott. Well, certainly that would be part of a 
conversation we would love to have with the committee, is how 
we might change criteria. SAAs are devoted to looking at the 
quality of programming, and of course that is what we would do 
as educators.
    At present, we do have criteria that allows us look at 
things like standards of progress, instructor qualification, 
the curriculum itself. It is very important to us that 
institutions grant prior credit if that credit has been earned 
at other places. We look at the ability to administer the 
program. And with recent changes by the Congress, we also are 
starting to look at inducements and making sure that 
institutions are not offering those.
    We believe in one standard. We believe that standard should 
be the same for both the profit and the nonprofit. We believe 
it should be a high standard. And certainly I think we have 
evolved to the point that we do need to have a look at the 
present criteria and possibly strengthen them.
    Mr. Takano. Mr. Coy, that conversation you had with the 
chairman toward the end of his line of questioning, I know from 
my years on community college boards that up to 80 percent of 
the students coming to California's community colleges were not 
college ready. Can you give me an idea of how many of our 
veterans who are seeking a return to college face remediation 
issues? Do you have a number on that?
    Mr. Coy. The short answer is, no, sir, I do not have an 
answer on how many require that sort of remedial training. And 
part of the reason that we don't have that kind of information 
is, is that we, number one, have not collected that 
information.
    But number two is, as I am often fond of saying, that 
veterans are sort of like fingerprints and each one is a little 
bit different. And some may need remedial courses in English, 
and some may need remedial courses in math, and some may need 
remedial courses on study habits, and the list goes on and on 
and on.
    So, no, sir, I don't have a number or percentage, but what 
we do know, I go out and talk at schools and universities all 
the time, and it is something that is going on.
    I would also like to suggest that SVA has done something 
that is really unique, Student Veterans of America, and they 
are developing a mentoring program and a tutoring-type program. 
We also have tutoring available to certain aspects of veterans.
    Mr. Takano. I want to get on to my next question, but I 
would like to pursue this issue with you further.
    Mr. Coy, the issues that we have been discussing today are 
so important because they help us understand what we all need 
to do to ensure that veterans' education benefits aren't being 
exploited, and that veterans are receiving the education they 
need and deserve. In light of that, I would like to raise 
another issue. Today the Center for Investigative Reporting 
published a story about the VA's response to student veterans 
complaints against colleges.
    The story is going to show that the VA investigated only 
324 of the roughly 2,400 complaints that veterans have filed 
against colleges for alleged deceptive marketing, financial 
fraud, or poor quality education. Can you tell me why so few 
complaints have been investigated and what the VA plans to do 
to address the remaining complaints?
    Mr. Coy. Yes, sir, absolutely. I did read the article this 
morning as well, and we have had several conversations with the 
author of that particular article. I will just stand back and 
take a look at the complaint system or feedback tool that we 
have. It was born out of the President's Principles of 
Excellence and that executive order. We created this system and 
it came online about 10 months ago.
    Since it has come online, there have been over 33,000 views 
of the tool and 2,298 complaints that have been submitted. We 
have about 48 percent of them that are pending. In other words, 
we haven't sent them out. There are about 1,000 active 
complaints or less than half.
    And what we do with these complaints is, is when we get 
them and we validate them in terms of an applicable complaint 
with respect to the Principles of Excellence, because about, I 
want to say 36 percent, have nothing do with the Principles of 
Excellence. They are complaints ranging from I don't like my 
professor to any number of sort of non-POE-type complaints.
    We take these complaints, we send them to the school, ask 
for their response. They have 60 days. After 60 days, if we 
don't respond, we generally try and give them another 30 days. 
So we have completed 366 of them. As a result of these 
complaints, we have done 42 risk-based compliance reviews. They 
have resulted in four suspensions and one withdrawal.
    And so we think this feedback tool is incredibly valuable 
in terms of transparency for veterans that are looking at these 
various schools, and we think it is so powerful that just last 
week we released an update to our comparison tool that includes 
that school's complaints that have been submitted through the 
system.
    The only other piece I would suggest in this is, is each 
one of these complaints is handled manually. So in other words, 
there is not a neat digital system that ships them from here to 
there. We take each one, we read each one. Where it is 
appropriate, we send them out to the school, we get responses. 
Schools have been incredibly responsive.
    Interestingly, I brought this, just as an example. This is 
a 30-page response to one of the complaints, of which 5 pages 
of it is pure verbiage talking about that particular complaint. 
So each one of these is taken very, very seriously. And part of 
the reason for that is, is, A, it is manual, and, B, each one 
is taken a look at individually.
    Mr. Takano. Mr. Chairman, my time is up and I yield back.
    Mr. Flores. Okay. Thank you.
    Mr. Coy, we will probably want to come back and revisit 
that. As you know, Chairman Miller of the entire VA Committee 
has issued a request to the agency to respond to some of these 
issues. So probably revisit this sometime next year.
    Dr. Wenstrup, you are recognized for 5 minutes for 
questions.
    Mr. Wenstrup. I have no questions.
    Mr. Flores. Okay. Ms. Kirkpatrick, you are recognized for 5 
minutes.
    Ms. Kirkpatrick. Dr. Wescott, I have a question about the 
Joint Advisory Committee. How often does it meet?
    Mr. Wescott. Well, actually, we just chartered that in 
September and the plan is to have our first meeting in January. 
There will be six members, six from the state approving 
agencies, six from the VA. Myself and the education service 
director will chair that group. Our expectation is probably 
that it would meet on a monthly basis or a bimonthly basis and 
that we would deal with issues that would impact both of our 
institutions, and particularly those where we are looking at 
changing policies or requirements vis-a-vis education 
programming.
    So we are excited about that. We think it is yet another 
avenue where we can work on these problems together. And we 
think it is also important that we work not only with the VA, 
but we are also excited about working with accreditors, those 
channels of communication as well, as have been mandated by 
law. We look forward to doing that as well.
    Ms. Kirkpatrick. The last panel suggested that every 
approved program be audited so we do away with having 300 
recipients of the GI Bill enrolled. Basically, if the program 
has one, they would be reviewed every 3 years. What do you 
think about that idea?
    Mr. Wescott. Well, I certainly am in agreement with our 
proposal that we would be looking at schools who have at least 
20 veterans, and let me add to that, every 2 years. And then we 
suggest no school should go without some kind of visit every 
three years. We believe that certainly we can, by visiting 
those schools, SAAs can help our partners with compliance 
surveys. But we also think that there is a great deal of value 
in us making training and technical assistance visits, that we 
are able to help schools that we have become aware of that are 
struggling, maybe they have a new SCO that has questions. So 
when there is an opportunity, we would like to visit those 
institutions as well.
    But you are right, we do need to adjust away from the 300-
plus. Many of those institutions having 300 or more veterans 
enrolled are adequately staffed, they are adequately trained, 
and possibly don't even have as much turnover as some of the 
other institutions that we need to go and visit.
    Ms. Kirkpatrick. Well, according to Mr. Coy's testimony, it 
is over 50 percent of the programs that are deemed approved 
fall within that category. So it seems like a lot are falling 
through the cracks.
    Mr. Coy, can you describe for me how a program becomes 
deemed approved? What is the criteria for that?
    Mr. Coy. Well, according to 111-377, if you are an 
accredited institution of higher learning and a degree-granting 
institution, you could be considered deemed approved. What the 
SAAs do when they look at each of those schools or 
apprenticeship programs is going in--and I have a list of 
things, if you will give me a second I can talk through some of 
the things that our SAAs do. They go out and----
    Ms. Kirkpatrick. Excuse the interruption, but could you 
focus on the for-profit schools that don't fall into that 
category of a higher education institution? How do you apply 
your criteria to get those programs deemed approved?
    Mr. Coy. I will defer to my colleague Dr. Wescott. He is 
probably more of an expert in terms of the exact things that 
they go in and do. I can certainly talk generally, but I think 
you would prefer something more specific.
    Ms. Kirkpatrick. Okay. Dr. Wescott.
    Mr. Wescott. Certainly, I would be delighted to respond to 
that, ma'am. Deemed-approved degree programs are at public and 
not-for-profit private institutions. So for-profit institution 
degree programs are not deemed approved. So we still look at 
those, as well as the NCD programs.
    At the deemed-approved institutions, we look at primarily 
the noncollege degree programs there, and that is where our 
legislation seeks to correct the deficiency in the present code 
to give us the criteria to do that. So we are still looking 
closely at the for-profits.
    Ms. Kirkpatrick. Okay.
    Mr. Coy, you described the complaint system and how that is 
done manually. Do you have plans to digitalize that and is it 
possible for the veterans to monitor the progress of their 
case?
    And I only have about 4 minutes, can I allow the witness to 
at least answer that question? Thank you, Mr. Chairman.
    Mr. Coy. It is a great question, Congresswoman, and the 
short answer is, is yes, we are looking at doing more 
automation. We wanted to get this tool on the street as quickly 
as possible. So the front end is automated, the back end is 
not. We are working with our IT folks to automate that as much 
as we can.
    Ms. Kirkpatrick. Thank you, Mr. Chairman, for your 
indulgence. I yield back.
    Mr. Flores. Thank you, Ms. Kirkpatrick.
    Thank you, Mr. Coy, Major General Worley, and Dr. Wescott. 
You are now excused.
    I want to thank everyone for your attendance today and the 
frank discussion on the state approving agencies. And I 
appreciate, Dr. Wescott, the recommendations of your group and 
I think they are very helpful.
    Finally, I ask unanimous consent that all members have 5 
legislative days to revise and extend their remarks and include 
any extraneous material in the record of today's hearing. 
Hearing no objection, so ordered.
    Mr. Flores. If there is nothing further, this hearing is 
adjourned.
    [Whereupon, at 11:25 a.m., the subcommittee was adjourned.]

                                 <F-dash>

                                APPENDIX

                 Prepared Statement of Ryan M. Gallucci

    Chairman Flores, Ranking Member Takano and members of the 
Subcommittee, on behalf of the men and women of the Veterans of Foreign 
Wars of the United States (VFW) and our Auxiliaries, I want to thank 
you for the opportunity to present the VFW's thoughts on the role that 
State Approving Agencies (SAAs) can play in ensuring quality in 
education for today's student veterans. As advocates for the success of 
student veterans in higher education, the VFW has long been concerned 
about the role the SAAs can play as the front-line quality assurance 
resource for GI Bill programs. This committee, along with partners in 
the veterans' advocacy community, played a major role in commissioning 
the Post-9/11 GI Bill, and the VFW has always been willing to serve as 
an advisor on ways to ensure success for our student veterans in higher 
education.
    Together we have made significant progress over the years, not just 
by commissioning landmark benefit programs, but also by ensuring 
resources are in place to help college-bound veterans make informed 
educational choices; ensuring veterans have access to quality, unbiased 
pre-enrollment counseling options; affording veterans recourse should 
they become victims of fraud, waste, and abuse; and most recently, 
ensuring that no public institution of higher learning can hold a 
veterans' military service against them when determining eligibility 
for in-state tuition. This Subcommittee and my fellow panelists should 
be proud of these recent accomplishments, but we must also acknowledge 
that we are not done yet.
    The SAAs were designed under the original Veterans Readjustment Act 
of 1944 to serve as each state's steward of quality educational 
programs for veterans. The VFW credits both the Department of Veterans 
Affairs (VA) and the SAAs with fostering a boom in higher education for 
America's middle class, ultimately leading to further investment in 
civilian higher education opportunities. With this in mind, the VFW 
believes it is important that we consistently revisit the SAAs' role in 
providing for the quality education our veterans have earned, like we 
are doing today.
    However, I must also remind the Subcommittee that today's hearing, 
and any resultant legislative changes, should only serve as a starting 
point for the broader discussion on the future role of SAAs. Some in 
today's higher education space insist that SAAs only duplicate the 
modern role of independent accreditors and the Department of Education. 
The VFW refutes this notion, and must remind the Subcommittee that the 
SAAs' scope of responsibilities is well beyond the kinds of programs 
approved for participation in the Department of Education. SAAs also 
serve as the gatekeepers of quality for non-degree programs eligible 
for GI Bill participation, as well as VA On-the-Job Training and 
Apprenticeship programs - two GI Bill programs that are currently 
underutilized, but can serve as gateways to quality careers for 
veterans who do not want to pursue a traditional college education.
    The VFW also understands that it is responsible governance to 
periodically revisit oversight mechanisms and at times change roles and 
responsibilities to suit the needs of an ever-changing veterans' 
community, which is why we encourage this committee to host future 
hearings to candidly discuss new and innovative ways to leverage a 
strong network of SAAs to foster quality outcomes for student veterans.
    The VFW proudly serves as a constructive partner with the National 
Association of State Approving Agencies (NASAA) as well as VA in 
ensuring student veterans have access to quality educational and 
vocational training programs. With this in mind, much of our testimony 
will focus on NASAA's recommendations to the Subcommittee on ways to 
improve the effectiveness of today's SAAs.

Statutory Authority on Non-College Degree Program Approval

    For the past few years, NASAA has expressed frustration at the 
inability for SAAs to inspect and approve non-college degree (NCD) 
programs at not-for-profit institutions of higher learning which became 
``deemed approved'' through the Post-9/11 Veterans Educational 
Assistance Improvements Act of 2010 (P.L. 111-377). Through P.L. 111-
377, all programs at not-for-profit schools accredited by a Department 
of Education-recognized accreditor were to be ``deemed approved'' for 
GI Bill purposes. However, what the SAAs found in subsequent years was 
that not-for-profit schools started to develop NCD programs of 
questionable value. When SAAs started to question the marketplace 
validity of these programs, SAAs were denied access to inspect them. In 
the subsequent years, NASAA caught the attention of VA's Office of 
Economic Opportunity, which issued guidance allowing the SAAs to once 
again inspect NCD programs.
    However, SAAs still lack the statutory authority to properly 
approve NCD programs at non-profit schools--meaning some programs 
continue to operate under the ``deemed approved'' umbrella, unless SAAs 
learn about them and inspect them for validity. The VFW supports 
extending the statutory authority to the SAAs to inspect these kinds of 
programs to validate their quality.
    NASAA also requested that the SAAs once again retain primary 
approval authority for GI Bill programs--another change ushered in 
through P.L. 111-377, through which the Secretary of Veterans Affairs 
was also given the authority to approve or disapprove programs. One 
goal of this initiative is to ensure that every state fully staffs its 
SAA, as four currently have eliminated their SAA position. While the 
VFW understands the intent of this provision, we believe that as the 
fiduciary of the benefit, VA must retain some authority over the 
approval and disapproval of programs.

Statutory Authority on Flight Program Approval at Public Institutions

    NASAA also has reported that public institutions of higher learning 
have started to commission flight training programs or free electives 
specifically targeting veterans for enrollment. According to the SAAs, 
the reason schools are adding these programs is because of the uncapped 
reimbursement offered by VA for flight programs at public institutions 
through the Post-9/11 GI Bill. VA has corroborated this report, 
acknowledging that several flight programs at public intuitions have 
been suspended for GI Bill eligibility for violating the long-standing 
85/15 headcount rule, through which no more than 85 percent of students 
enrolled in an academic program can be receiving VA education benefits. 
In years past, the VFW believed that VA's 85/15 rule had become 
obsolete, since veterans comprised such a small cohort in the higher 
education population. We were surprised to learn that programs--
particularly programs at public institutions--could violate this 
seemingly irrelevant rule by recruiting veterans for newly-commissioned 
flight programs.
    However, the fact that these programs have sprouted up in the few 
years since the Post-9/11 GI Bill was signed into law are a clear 
indication that SAAs must have greater authority to inspect and approve 
flight programs at public institutions. Moreover, the VFW agrees with 
NASAA's recommendation to establish a tuition and fees cap for flight 
programs commensurate with the cap for private institutions of higher 
learning already established for the Post-9/11 GI Bill.
    These new criteria are not an indictment of the quality of flight 
programs at public institutions, but instead are a quality control 
measure to ensure that the benefit is administered in a fair and 
equitable way for veterans who choose to enroll.

Consistency and Flexibility for Compliance Surveys

    Finally, NASAA has also expressed serious concerns over current 
statutory requirements on how VA and the SAAs must conduct compliance 
surveys every year. Under current law, VA must conduct compliance 
surveys annually on all facilities reporting at least 300 enrolled GI 
Bill recipients. The VFW agrees with NASAA's assertion that this is an 
impossible mission, and one that neglects institutions that may face 
significant compliance issues.
    The current statutory requirement can mean that some schools will 
go years without a compliance survey, as VA and the SAAs struggle to 
satisfy the requirement to survey schools with large veteran 
populations. Such a requirement can hinder both VA's and the SAAs' 
response to at-risk programs that may enroll far fewer veterans, while 
wasting significant time and resources inspecting perennial top 
performers who happen to have large student veteran populations.
    The VFW agrees with NASAA that the statutory requirements should 
change to ensure that VA can conduct compliance surveys on all 
institutions at least once every three years. VA and the SAAs should 
also be given flexibility in determining priorities in conducting 
annual compliance surveys.
    In the past, this kind of collaboration may have been a difficult 
task, but thanks to the GI Bill Complaint System commissioned by this 
Committee through the Improving Transparency in Education for Veterans 
Act of 2012, the VFW is confident that VA and the SAAs now have access 
to a clearinghouse of information through which they can identify 
trends that would lead to risk-based program reviews.

Approval of Preparatory Courses

    In the past year, the VFW has learned that no preparatory courses 
offered by institutions of higher learning have been approved for use 
by GI Bill beneficiaries for chapters 33, 30, 1606, 1607 and 35. The 
ability to use these benefits to prepare veterans for complex entrance 
exams, like the LSAT, GMAT or GRE, is a major selling point for 
veterans, and a benefit readily discussed on VA's GI Bill FAQ website. 
Unfortunately, we have found that some college administrators, VA 
employees and SAA officials are unaware that the GI Bill will pay for 
preparatory courses and, therefore, are denying veterans the ability to 
use their benefits for such programs. In fact, after shopping around, 
the VFW failed to identify a single preparatory course through which a 
veteran could use his or her benefits.
    In discussions with VA and NASAA on the ability to approve 
preparatory courses, both VA and the SAAs have admitted that the law is 
unclear about how these programs are to be treated for GI Bill 
approval. The VFW seeks clarification on how VA should approve 
preparatory courses offered by institutions of higher learning to 
ensure that veterans can start taking advantage of this opportunity.
    The VFW firmly believes that the SAAs remain a valuable partner in 
ensuring quality for veterans in higher education. We agree with many 
of NASAA's recommendations to change the current framework under which 
the SAAs operate to ensure they can continue serving in this role. 
However, we also reiterate our call for periodic discussions on how to 
better leverage the SAAs and their resources to ensure veteran success 
in higher education.
    Chairman Flores, Ranking Member Takano, this concludes my testimony 
and I am happy to answer any questions you may have.

Information Required by Rule XI2(g)(4) of the House of Representatives

    Pursuant to rule XI2(g)(4) of the House of Representatives, VFW has 
not received any federal grants in Fiscal Year 2013, nor has it 
received any federal grants in the two previous Fiscal Years.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                  Prepared Statement of Steve Gonzalez

    Chairman Flores, Ranking Member Takano and distinguished Members of 
the Subcommittee, on behalf of National Commander Mike Helm and the 2.4 
million members of The American Legion, we thank you and your 
colleagues for the work you do in support of our service members and 
veterans as well as their families. The hard work of this Subcommittee 
in creating significant legislation has left a positive impact on our 
military and veterans' community.
    We thank you especially for holding this hearing that aims to 
examine the current role of State Approving Agencies (SAAs) in ensuring 
that veterans have access to quality educational and job training 
programs. With the constantly shifting economic and social landscape 
faced by veterans, it is important to continually re-evaluate and--if 
needed--revise the role of these SAAs in order to protect veterans and 
taxpayers.
    The American Legion is proud to work with the National Association 
of State Approving Agencies (NASAA) in order to provide veterans with 
the best educational and training opportunities possible.

Background

    State Approving Agencies (SAAs) are responsible for approving and 
supervising programs of education for the training of veterans, 
eligible dependents, and eligible members of the National Guard and the 
Reserves. SAAs grew out of the original GI Bill of Rights that became 
law in 1944. Though SAAs have their foundation in Federal law, SAAs 
operate as part of state governments. SAAs approve programs leading to 
vocational, educational or professional objectives. These include 
vocational certificates, high school diplomas, GEDs, degrees, 
apprenticeships, on-the-job training, flight training, correspondence 
training and programs leading to required certification to practice in 
a profession.
    In December 2010, Congress passed the Post 9/11 Veterans 
Educational Assistance Improvements Act of 2010 (P.L. 111-377), which 
was signed into law in January 2011. That bill contained language that 
impacted the role of the State Approving Agencies in terms of program 
approval authority. Due to the expansion of GI Bill-eligible programs 
to include many for-profit vocational training programs, non-registered 
apprenticeships, and on the job training establishments, the law 
``deemed approved'' many programs that were otherwise accredited or 
approved by other institutions such as Department of Education-
recognized accrediting bodies. This was done in order to relieve some 
of the work load of the SAAs, and to avoid redundancy between the work 
done by SAAs and other accrediting bodies. This had the effect of 
shifting the role of the SAAs from being the primary entity responsible 
for approving all GI Bill eligible programs to examining only those 
that were not deemed approved for the purposes of the legislation (viz. 
programs at for-profit institutions, non-registered apprenticeships, on 
the jobs training establishments, non-accredited institutions, non-
public licensure/certification examinations, and new institutions).
Our Position
    While The American Legion applauds the expansion of the GI Bill 
applicability, we find it problematic that SAAs have been removed from 
a large portion of the approval process. SAAs focus explicitly on the 
GI Bill and serve to protect it, and, by extension, the veterans using 
it. They ensure that programs meet certain eligibility criteria, in 
order to see that the funds are not wasted, but are put to the best use 
possible. Their unique focus on how GI Bill funds are spent makes their 
mission distinct from all other oversight and approving bodies. 
Furthermore, as federally authorized arms of their respective state 
governments, SAAs are in a unique position to evaluate programs that 
are offered in their state, given their proximity. This arrangement 
also maintains the federalism required by the Constitution.
    Therefore, The American Legion supports the SAAs, and believes that 
they should have a role in reviewing, evaluating, and approving all 
educational and training programs for GI Bill use.
    While some may argue that the work that the SAAs do is redundant to 
the work of accrediting bodies, The American Legion believes that SAAs 
approval is, in fact, unique. This is because the charge of the SAAs is 
to specifically focus on protecting GI Bill funds. While traditional 
accreditation provided by Department of Education-recognized 
accrediting bodies does a significant portion of work toward ensuring 
quality programs, SAA approval should work in tandem with that 
accreditation, rather than the stark division that is represented in 
the current statute.
    However, under P.L. 111-377, SAAs lack the statutory authority to 
inspect many questionable programs that have sprung up since the 
passage of the Post 9/11 GI Bill at not-for-profit institutions. Given 
that the original mandate of the SAAs was to protect GI Bill funds from 
being squandered in dubious programs, it seems reasonable that SAAs 
should be allowed to inspect all suspicious programs, even if they are 
housed in not-for-profit institutions.
    As such, The American Legion supports the portion of the 
legislative proposal submitted by NASAA that would statutorily make 
SAAs the primary approving body for all programs approved for GI Bill 
use. Programs may still be deemed approved, but at the discretion of 
the SAAs, not the VA secretary.
    The American Legion agrees with the NASAA recommendations regarding 
changes to flight training. That not for profit institutions would take 
advantage of the GI Bill by charging exorbitant tuition and fees for 
this training is disheartening. Fixing this loophole helps to protect 
the GI Bill by ensuring that its costs are kept low, while still 
allowing beneficiaries to pursue such training, if required or so 
desired. Furthermore, in cases where the institution contracts with a 
third party to provide the training, The American Legion believes that 
the SAAs should have approval authority.
    Additionally, The American Legion supports the proposed shift in 
the statutory requirement for SAA compliance surveys. As NASAA has 
indicated, the current mandate (annual surveys for every institution 
offering anything other than non-standard degrees, and any institution 
that enrolls more than three hundred GI Bill beneficiaries is 
needlessly burdensome, and is, frankly impossible given the limited 
resources available.
    In light of this, The American Legion believes that their funding 
should be increased to ensure that they are able to adequately perform 
their crucial role. Even if SAAs compliance survey requirement is 
reduced, an increased role as primary approving body seems likely to 
require more resources.
Conclusion
    The American Legion supports SAAs, and recognizes the critical role 
they play in ensuring quality programs for veterans using their GI Bill 
benefit. This hearing should serve as a starting point for an ongoing 
conversation regarding the role that SAAs currently play in quality 
assurance.
    How SAA approvals interact with accreditation remains somewhat 
unclear. This legislation would make strides toward clarifying and 
codifying the terms of that interaction. That said, The American Legion 
believes that more insight into how the process works is needed in 
order to ensure that veterans receive the highest quality education and 
training, while preventing redundancy and wasting resources.
    Chairman Flores, Ranking Member Takano, we thank the subcommittee 
for looking into this issue that is crucial to veterans and look 
forward to your questions.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


              Prepared Statement of Dr. Joseph W. Wescott

Introduction
    Chairman Flores, Ranking Member Takano and members of the 
Subcommittee on Economic Opportunity, I am pleased to appear before you 
today on behalf of the National Association of State Approving Agencies 
(NASAA) and appreciate the opportunity to provide comments on ``The 
Role of the State Approving Agencies in Ensuring Quality Education 
Programs for Veterans''. I am accompanied today by Timothy Freeman, 
NASAA Legislative Director, We also will provide some additional 
comments that may be helpful to the Committee as it addresses concerns 
about maintaining the effectiveness and integrity of the administration 
of educational assistance programs administered by the Department of 
Veterans Affairs under Title 38, U.S.C., particularly in regard to 
safeguarding educational quality.

Role of the State Approving Agencies: Past and Present

    State Approving Agencies were established by Congress with the 
passage of the Veteran's Readjustment Act of 1944, or the GI Bill of 
Rights, signed into law by President Franklin D. Roosevelt. That 
legislation changed forever the face of higher education in the United 
States and much has been written on the social, economic and cultural 
return on that investment.
    Congress, recognizing that it was the responsibility of the states 
within our federal system of government to oversee the education of its 
citizens, required that each state establish a ``State Approving 
Agency'' and the governor of each state designated a state bureau or 
department as the SAA. The SAA was to be supported by reimbursement of 
its expenses by the US Department of Veterans Affairs (VA). Thus 
evolved a truly cooperative federal-state effort that maintains the 
rights of the states while monitoring and protecting a federally-
sponsored program administered under the terms and conditions of 
federal law. And I would say that the present leadership of the VA has 
strived, particularly in the person of the Deputy Undersecretary and 
the Education Service Director, to both support and enhance that 
historic partnership.
    From a role of simply advising VA as to which educational and 
training programs were state-approved, State Approving Agencies evolved 
to become the primary source of assuring institutional accountability. 
With specialized authorization under the Code of Federal Regulations 
and state statues, they exercise the state's authority to approve, 
disapprove and monitor education and training programs. SAAs also 
assist the states and VA with exposing fraudulent and criminal activity 
involving the payment of veteran's benefits.
    In 1948, SAA representatives met to form a professional 
organization to promote high professional standards, create a forum for 
the exchange best practices, and to promote uniformity of purpose and 
practice. For almost seventy years now, NASAA has worked with our VA 
partners, the VSOs, and all agencies to ensure that the greatest 
numbers of quality programs are available to those eligible for 
education and training programs. We do this through our primary mission 
of program approval and out related efforts; compliance, training, 
liaison and outreach. We would like to briefly discuss these in turn.

Practice and Partnership

    Today, fifty-five SAAs in 49 states (some states have two) and the 
territory of Puerto Rico, composed of around 175 professional and 
support personnel, are supervising over 7,000 active facilities with 
approximately 100,000 programs (includes those considered ``deemed 
approved''). The Subcommittee is no stranger to our fundamental role as 
it is the same today as when we were created by Congress. SAAs and 
NASAA work in collaboration with the VA and our other partners to 
promote and safeguard quality education and training programs for 
veterans and other eligible persons AND assist VA in preventing fraud, 
waste and abuse in the administration of the GI Bill. NASAA believes 
that the primary responsibility and focus of the SAAs is, and should 
continue to be, to review, evaluate, and approve programs at schools 
and training facilities, utilizing state and federal criteria. For that 
reason alone, it is important, as Congress intended, that each state 
have an SAA. Last year alone, SAAs across our nation approved over 
39,000 education and training programs at universities, colleges, 
training institutions, flight schools, and correspondence schools. We 
also approved around 1000 licensing and certification exams providing 
for reimbursement of exam fees. We do this through an approval process 
that allows us to carefully evaluate many factors including curriculum, 
instructors, policies, facilities, equipment and advertising. After a 
careful review of the completed application, we schedule an inspection 
visit to the facility to ensure that the institution understands 
requirements and has the capability to oversee and administer the 
program. If we find that they do, we provide training on the approval 
process and our continuing expectations. And we continue to review the 
approvals on a recurring basis as schools add or change programs and 
policies. Also as a part of this approval process, where appropriate, 
we ensure that schools are in compliance with Public Law 112-249 and 
are not providing any ``commission, bonus, or other incentive payment 
based directly or indirectly on success in securing enrollments or 
financial aid to any persons or entities engaged in any student 
recruiting or admission activities.'' And for schools who are 
signatories of the ``Principles of Excellence (POE),'' we provide 
training and information to them as well.
    In 2011, with the implementation of Section 203 of Public Law 111-
377, the Post-911 Veterans Educational Assistance Improvements Act, we 
began assisting VA with their requirement to perform compliance surveys 
at SAA-approved institutions. Over the course of the next three years, 
FY 12 through14, SAAs conducted over sixty (60) percent of the 
compliance survey visits performed throughout the nation. Last year 
alone, we conducted 2,589 visits, or some fifty-one (51) percent of the 
visits accomplished. During those visits we ensure that schools are 
conducting the GI Bill educational program in compliance with state and 
federal requirements, talk to veterans (if possible) and if 
appropriate, review POE requirements with institutions. We are proud to 
have worked with our partners at VA on the joint Compliance Survey 
Redesign Work Group (CSRWG) to change for the better the way that 
compliance surveys are conducted. We believe there is more work to be 
done in that area and we look forward to addressing those needs (and 
others) through the recently chartered Joint Advisory Forum (JAC), made 
up of NASAA and VA leadership. And we are suggesting as a part of our 
legislative proposal, a further refinement of the federal requirement 
for compliance surveys.
    We consider an important part of our mission to be the training and 
professional development of our newly hired SAA personnel (and in 
recent years our VA Educational Liaison Representatives (ELRs)). As 
such, each year we offer our National Training Institute (NTI) at 
conveniently located sites around the nation utilizing our National 
Training Curriculum, which provides information on policies and 
procedures relating to the SAA mission. Last month, we trained a total 
of 54 students, 36 SAA personnel and 18 VA personnel, in Cincinnati, 
Ohio and the previous year, 29 SAA professionals were trained in 
Atlanta, GA. We consider equally important the opportunity to train 
school certifying officials, and we work closely with our National 
Association of Veteran's Program Administrators (NAVPA) partners to do 
so on a national level. In our individual states we work with the ELRs 
to provide training to SCOs at conferences and workshops each year. 
SAAs also provide training to school officials during our official 
visits (inspection and compliance) and when resources and time allow, 
we schedule training and technical assistance visits to schools that 
need additional training.
    As State agencies working with a Federal program, SAAs are uniquely 
situated to network with stakeholders in education and training to 
coordinate the improved delivery of veterans' benefits.
    State Approving Agencies work with others to exchange information, 
facilitate the increased approval of programs and raise awareness of 
the veteran, their educational needs and benefits. SAAs have forged 
links with State Agencies such as Departments of Veterans Affairs, 
Departments of Education, Higher Education Governing Boards, 
Departments of Labor and other licensing boards. We meet with 
representatives of accreditation associations, the National Guard and 
the Reserve, apprenticeship councils, union boards, and veterans 
service organizations. In the past, some SAAs have also participated on 
accreditation visits. At a national level, contacts are made with the 
Departments of Defense, Education, and Labor, as well as the Federal 
Aviation Administration. State Approving Agency activities often 
complement what is being done at the state level and since not all 
states have program review offices, those SAAs become the de facto 
review entity for the State.

Legislative Proposals

    Given the evolution of the role of SAAs over the past decade, NASAA 
has submitted legislative proposals to the committee which would serve 
to improve the service and protection provided to our veterans while 
enhancing the administration of the GI bill educational program. Our 
legislative proposals to the Committee are in the area of approval 
authority, payment for flight programs, and compliance reviews.
    NASAA seeks to clarify and codify State approval authority and 
oversight over all non-Federal facilities. We wish to clarify 3672 in 
regards to the role of the SAAs by identifying SAAs as the primary 
entity responsible for approval, suspension, and withdrawal. These 
proposed changes would ensure that an actual process for approval, 
suspension, and withdrawal will be adhered to (as opposed to our 
current scenario under the present ``deemed approved'' idea). However, 
we are not seeking to do away with the idea that accredited degree 
programs at public and not for profit private institutions of higher 
education (IHLs) may be ``deemed approved'' .Rather, we seek to 
maintain the intent of the statute by adhering to an expeditious list 
of approval criteria for those programs that have been reviewed and/or 
endorsed by another appropriate entity. Furthermore, these changes 
would lessen the opportunity for third-party contracted training 
programs to be ``deemed approved'' with no review.
    In addition, since the passage of the Post 9/11 Veterans 
Educational Assistance Improvements Act of 2010 (111-377) in January of 
2011, there has been no statutory authority for the approval of 
accredited NCD programs at public or private not-for-profit 
institutions. Our recommendations expand 3675 to cover all accredited 
programs not already covered under 3672, while maintaining all previous 
approval criteria for private-for-profit institutions.
    NASAA is seeking measures to improve cost control for flight 
programs offered by colleges and universities. These programs 
frequently involve a contracted flight school. Some public higher 
education institutions have instituted extreme costs for flight fees as 
there are presently no caps in place for public IHLs. In some cases, 
benefits have been paid for aviation degree programs at public IHLs 
provided by a third-party flight contractor with no approval issued by 
the governing SAA. This was exacerbated by the implementation of 3672. 
And some students are taking flight classes as electives with no cost 
cap for flight fees. In those cases, students could foreseeably take 
flight classes as an ``undeclared'' student for up to two years. NASAA 
suggests limiting Chapter 33 payments flight programs at public 
institutions to prevailing cap, producing immediate cost-savings. There 
would be no impact on the institutions ability to access Yellow Ribbon 
funds. This would also eliminate the need to further investigate and 
micro-manage flight programs areas including the number of flight hours 
in addition to those minimally required or the types of aircraft used.
    Finally, NASAA seeks appropriate changes to 38 US 3693 ( Compliance 
Surveys) to maximize the opportunity to protect the G I Bill while 
changing the manner in which we perform these surveys to reflect the 
changes that have occurred in higher education and training in the past 
three decades. The current statutory requirements for VA to conduct 
Compliance Surveys represents an impossible mission, given present 
resources. The statute requires an annual survey be conducted at each 
and every facility that offers anything other than a standard college 
degree as well as each and every institution enrolling at least 300 GI 
Bill recipients. We would like to see changes in the law to allow for a 
manageable mission in which VA, with the assistance of SAA partners, 
can conduct compliance surveys on a regular scheduled basis at the 
majority of approved institutions, while allowing for continued waiver 
of those institutions with a demonstrated record of compliance. At the 
same time, we feel strongly that no school should go without a visit of 
some kind for longer than three years. Such compliance surveys should 
be designed to ensure that the institution and approved courses are in 
compliance with all applicable provisions of chapters 30 through 36 of 
this title, but should also allow for limited program review, 
interviews with veteran students and training for school officials. 
Plus, the changes should allow for flexibility to adjust resources 
towards specific high-risk educational institutions as specific needs 
arise, allowing both VA and SAAs to be nimble and proactive in response 
to risks identified through the new complaint system and will allow 
SAAs to provide needed technical assistance and training visits to 
schools. To accomplish this, Mr. Chairman, our legislative proposal is 
to amend the law to provide that ``the Secretary will conduct a 
compliance survey at least once every two years at each institution or 
facility offering one or more courses approved for the enrollment of 
eligible veterans or persons if at least 20 veterans or persons are 
enrolled in such course or courses.''

Conclusion

    Mr. Chairman, we remain strongly committed to working closely with 
our VA partners, VSO stakeholders and educational institutions to 
ensure that veterans have access to quality educational programs 
delivered in an appropriate manner by reputable providers. For we all 
share one purpose, a better future for our veterans and their 
dependents. As I told another gathering of NASAA and VA personnel in 
Washington over a year ago, while attempting to define who are the 
SAAs, ``We are not mere clerks or bureaucrats. We are not just state 
employees drawing a federally funded check. We are educators. We are 
the engineers of excellence and the gatekeepers of quality. We will not 
fail in our commitment to safeguard the public trust, to protect the GI 
Bill and to defend the future of those who have so nobly defended us.'' 
Mr. Chairman, thank you again for this opportunity and I look forward 
to answering your questions.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                  [all]
</pre></body></html>
